                       DEPARTMENT OF HEALTH AND HUMAN SERVICES


                  OFFICE OF INSPECTOR GENERAL
                                           WASHINGTON, DC 20201



                                           OCT -5 2012
TO: 	              Marilyn Tavenner
                   Acting Administrator
                   Centers for Medicare & Medicaid Services


FROM:              Stuart Wright
                   Deputy Inspector General
                     for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Criminal Convictions for Nurse Aides With
           Substantiated Findings ofAbuse, Neglect, and Misappropriation,
           0 EI -07-1 0-004 22


The Patient Protection and Affordable Care Act (ACA) mandates that the Office of
Inspector General (OIG) submit a report to Congress evaluating the Nationwide Program
for National and State Background Checks on Direct Patient Access Employees of
Long-Term-Care Facilities and Providers (background check program) not later than
180 days after the program's completion. One required element of the mandated
evaluation is an assessment of the impact of the background check program on reducing
the number of incidents of neglect, abuse, and misappropriation of resident property to
the extent practicable. The objective of this memorandum report is to provide baseline
information for the mandated report on the extent to which nurse aides with substantiated
findings of abuse, neglect, and/or misappropriation had previous criminal convictions that
could have been detected through background checks and the nature of those convictions.
Knowledge of this data will assist in assessing the extent to which the background check
program may reduce the number of incidents of neglect, abuse, and misappropriation of
resident property.

SUMMARY

Section 6201 of the ACA established the background check program. 1 This voluntary
program provides grants to States, the District of Columbia, and U.S. territories (States)
to implement programs to conduct background checks on prospective long-term-care
employees. The ACA mandates an OIG evaluation of the State programs, including an
assessment of the impact of the background check program on reducing the number of



1
    P.L. 111-148, enacted March 23,2010.
Page 2 – Marilyn Tavenner


incidents of abuse, neglect, and misappropriation of resident property to the extent
practicable. 2

In September 2011, we requested from each State’s nurse aide registry a roster of all
nurse aides who received a substantiated finding of abuse, neglect, and/or
misappropriation of property during 2010. For each nurse aide on these rosters, we
requested criminal history record information from the Federal Bureau of Investigation
(FBI). Nineteen percent of nurse aides with substantiated findings had at least one
conviction in their criminal history records prior to their substantiated finding. Among
these nurse aides, the most common conviction (53 percent) was for crimes against
property (e.g., burglary, shoplifting, and writing bad checks). We also determined
whether nurse aides with each type of substantiated finding were more likely to have
certain types of convictions. We found that nurse aides with substantiated findings of
either abuse or neglect were 3.2 times more likely to have a conviction of crime against
persons than nurse aides with substantiated findings of misappropriation, and nurse aides
with substantiated findings of misappropriation were 1.6 times more likely to have a
conviction of crime against property than nurse aides with substantiated findings of abuse
or neglect. Finally, nurse aides with substantiated findings in 2010 had a higher rate of
convictions than nurse aides employed in nursing facilities overall.

BACKGROUND

State Nurse Aide Registries
The Omnibus Budget Reconciliation Act of 1987 added sections 1819 and 1919 of the
Social Security Act (SSA) to ensure the delivery of quality care to Medicare and
Medicaid long-term-care facility residents. These provisions require each State to
maintain a nurse aide registry of all individuals who are certified to work as nurse aides
in that State, as well as all individuals who have substantiated findings of abuse or
neglect of residents, or misappropriation of resident property. 3 Federal regulations
promulgated pursuant to these provisions prohibit long-term-care facilities from hiring
nurse aides who “have had a finding entered into the State nurse aide registry concerning
abuse, neglect, mistreatment of residents or misappropriation of their property….” 4
Long-term-care facilities must also report to the nurse aide registry any knowledge of
actions by a court of law that would indicate unfitness to serve as a nurse aide. 5

When a long-term-care facility suspects that abuse, neglect, or misappropriation of
resident property has occurred, the facility must investigate and report the results to the
State survey and certification agency. 6 If the State survey and certification agency finds
that the allegation is substantiated, a finding is placed in the nurse aide registry for the



2
  ACA § 6201(a)(7).
3
  SSA §§ 1819(e)(2) and 1919(e)(2).
4
  42 CFR § 483.13(c)(1)(ii).
5
  42 CFR § 483.13(c)(1)(iii).
6
  42 CFR § 483.13(c)(2) through 42 CFR § 483.13(c)(4).


Criminal Convictions for Nurse Aides With Substantiated Findings (OEI-07-10-00422)
Page 3 – Marilyn Tavenner


implicated nurse aide. 7 Only the State survey and certification agency may place
substantiated findings on the registry. 8

Nurse aide registries must include at a minimum: (1) the full name of the individual,
(2) identifying information, (3) the date the individual became eligible for placement in
the registry, and (4) information regarding substantiated findings, as appropriate. 9
Federal regulations require States to remove registry records of individuals who have not
performed nursing or nursing-related services for a period of 24 consecutive months,
unless the individual’s registry entry includes substantiated findings of abuse, neglect, or
misappropriation of property. 10

Individuals with substantiated findings of abuse, neglect, or misappropriation of property
must remain on the registry permanently, unless the findings were made in error, the
individual was found not guilty in a court of law, or the State is notified of the
individual’s death. 11 The Balanced Budget Act of 1997 established the only exception,
which allows nurse aides with substantiated findings of neglect to petition the State to
have their names removed from the registry. 12 Such an individual must wait at least
1 year from the date on which the substantiated finding was added to the registry, and the
State must determine that the employment and personal history of the nurse aide did not
reflect a pattern of abusive behavior or neglect, and that the neglect involved a singular
occurrence. 13

Apart from the prohibition on employing as nurse aides individuals who have
substantiated findings of abuse, neglect, or misappropriation, or who have been found
guilty of abuse, neglect, or mistreatment of residents by a court of law, there is no Federal
prohibition on employing individuals convicted of other types of crimes. 14

Background Check Program
Section 6201 of the ACA requires the Secretary of Health and Human Services to
establish a background check program in which States may voluntarily apply for grant
funds to conduct national and State background checks of prospective direct patient
access employees of nursing facilities and other long-term-care providers. The program
is administered by CMS in cooperation with FBI. The ACA provides up to $160 million
in Federal funds for the program.

To implement the background check program, CMS began soliciting applications for
grant awards in June 2010. Program start dates for each participating State vary based on
when the State received a grant award; however, the completion date of the program

7
  Centers for Medicare & Medicaid Services (CMS), State Operations Manual, Pub. No. 100-07, ch. 5,
§ 5310.3.
8
  42 CFR § 483.156(b)(2).
9
  42 CFR § 483.156(c)(1).
10
   42 CFR § 483.156(c)(2).
11
   42 CFR § 483.156(c)(1)(iv)(D).
12
   P.L. 105-33 § 4755, amending SSA §§ 1819(g)(1) and 1919(g)(1).
13
   P.L. 105-33 § 4755, amending SSA §§ 1819(g)(1) and 1919(g)(1).
14
   42 CFR § 483.13(c)(1)(ii).


Criminal Convictions for Nurse Aides With Substantiated Findings (OEI-07-10-00422)
Page 4 – Marilyn Tavenner


(i.e., the date that participating States will deplete their grant funds) is unknown at this
time. As of September 2012, 19 States had received grants.

Section 6201 of the ACA establishes requirements for the background check programs
that participating States must implement. States are required to conduct three types of
background checks: (1) a search of any State-based abuse and neglect registries and
databases, and the abuse and neglect registries of all known States in which the employee
lived; (2) a check of State criminal history records; and (3) a fingerprint-based FBI
criminal history records check. 15 Participating States must also describe and test methods
to reduce duplication of fingerprinting, including the development of “rap back”
capabilities. 16 “Rap back” is the term used to describe processes to ensure that State law
enforcement departments inform the appropriate State agency of any criminal conviction
by the employee that occurs at any time following the preemployment background check.
The State agency in turn informs the employer of the conviction.

Mandated OIG Evaluation
The ACA requires OIG to submit a report to Congress evaluating the background check
program not later than 180 days after its completion. In July 2010, we began an
evaluation entitled Nationwide Program for National and State Background Checks for
Long-Term-Care Employees (OEI-07-10-00420). In addition to the mandated report,
which we will publish at the end of the background check program, we are producing
interim reports as needed. This memorandum is one such interim report.

According to the ACA, OIG must include the following in its evaluation:

1. A review of the various procedures implemented by participating States for
   long-term-care facilities or providers, including staffing agencies, to conduct
   background checks of prospective direct patient access employees under the
   background check program and identification of the most appropriate, efficient, and
   effective procedures for conducting such background checks;

2. An assessment of the costs of conducting such background checks (including startup
   and administrative costs);

3. A determination of the extent to which conducting such background checks leads to
   any unintended consequences, including a reduction in the available workforce for
   long-term-care facilities or providers;

4. An assessment of the impact of the background check program on reducing the
   number of incidents of neglect, abuse, and misappropriation of resident property to
   the extent practicable; and




15
     P.L. 111-148 § 6201(a)(3)(A).
16
     P.L. 111-148 § 6201(a)(4)(B)(viii).


Criminal Convictions for Nurse Aides With Substantiated Findings (OEI-07-10-00422)
Page 5 – Marilyn Tavenner


5. An evaluation of other aspects of the background check program, as determined
   appropriate by the Secretary. 17

This memorandum report provides baseline information on issue 4 above. The full
mandated report will cover all of the issues listed above.

Related Report
A 2011 OIG evaluation determined the extent to which nursing facilities employed
individuals with criminal convictions. In that evaluation, we found that 92 percent of
nursing facilities employed at least one individual with at least one criminal conviction. 18
Overall, 5 percent of all nursing facility employees had at least one criminal conviction.
OIG recommended that CMS work with States participating in the background check
program to develop a list of State and local convictions that disqualify an individual from
nursing facility employment under the Federal regulation and periods for which each
conviction bars the individual from employment. In response, CMS formed a workgroup
of States to provide recommendations on establishing (1) a list of specific conviction
types that disqualify individuals from employment, (2) a list of conviction types that can
be considered for rehabilitation, and (3) periods for disqualification. 19

METHODOLOGY

Data Collection
Nurse Aide Data. From each State nurse aide registry, we obtained a roster of all nurse
aides who received a substantiated finding of abuse, neglect, or misappropriation of
property in 2010. For each nurse aide with a substantiated finding, we requested the
following data elements: (1) full name, (2) date of birth, (3) Social Security number
(SSN), (4) race, (5) sex, (6) date of initial registration, (7) effective date of the
substantiated finding, and (8) whether the substantiated finding was for abuse, neglect, or
misappropriation of property. We received data on a total of 1,611 nurse aides with
substantiated findings in 2010. Table 1 shows the number of nurse aides with each
finding type.




17
   P.L. 111-148 § 6201(a)(7)(A)(ii).
18
   OIG, Nursing Facilities’ Employment of Individuals With Criminal Convictions, OEI-07-09-00110,
March 2011.
19
   The Long-Term-Care Criminal Convictions Workgroup is made up of 11 States and CMS central and
regional office staff.


Criminal Convictions for Nurse Aides With Substantiated Findings (OEI-07-10-00422)
Page 6 – Marilyn Tavenner

Table 1: Number of Nurse Aides With Substantiated
Findings in 2010 by Type
                                   Number of
 Finding Type
                                 Nurse Aides
 Abuse                                                       563
 Neglect                                                     511
 Misappropriation                                            466
 Abuse and Neglect                                            64
 Abuse and Misappropriation                                    4
 Neglect and Misappropriation                                  2
 Abuse, Neglect, and Misappropriation                          1
  Total                                                    1,611
 Source: OIG analysis of nurse aide registry data, 2012.


Criminal History Records. For each nurse aide with a substantiated finding, we
requested criminal history record information from FBI. 20 We provided the nurse aide
data obtained from State nurse aide registries to FBI. FBI performed a name-based
match with the Interstate Identification Index, which is an electronic repository of
criminal history record information. For the 1,611 names we provided, we received
criminal history information for 852 individuals with names that closely matched. 21
Using the SSN, date of birth, race, and gender identifiers, we further examined the
matches FBI provided to identify nurse aides with criminal convictions. We identified
341 nurse aides with substantiated findings who also had criminal convictions. 22

Using six broad categories of offenses, we recorded convictions from each positively
matched individual’s criminal history. 23 Following are the six broad categories of
offenses and examples of specific offenses included in each category. (These lists do not
include every specific offense we found in each of the six categories.)
    • crimes against persons: assault, battery, rape;
    • crimes against property: burglary, larceny, possession of stolen property,
       shoplifting, theft, counterfeiting, writing bad checks;
    • driving under the influence of drugs or alcohol (DUI): driving under the
       influence, driving while intoxicated;
    • driving-related crimes (other than DUI): leaving the scene of an accident, driving
       with a suspended license;
    • drug-related crimes: possession of drugs or paraphernalia, sale of controlled
       substances; and
    • other: disorderly conduct, prostitution, resisting arrest, weapons violations.




20
   To gain access to criminal history record information, we entered into an Information Transfer
Agreement with FBI. Our Information Transfer Agreement governs the terms of OIG’s access to FBI
criminal history records for research purposes.
21
   FBI did not provide any matches for 759 individuals; therefore, we did not perform further analysis on
these individuals.
22
   The identifiers of 100 individuals did not match the identifiers that the State nurse aide registries
provided (e.g., different date of birth, different SSN). For the remaining 411 individuals, the criminal
history records contained information on charges, but not convictions.
23
   We consulted FBI definitions of crime to assist us in categorizing offenses. Accessed at
http://www2.fbi.gov/ucr on June 7, 2012.


Criminal Convictions for Nurse Aides With Substantiated Findings (OEI-07-10-00422)
Page 7 – Marilyn Tavenner


Comparison of Conviction Rates and Types for Nurse Aides With Substantiated Findings
in 2010 and for Nurse Aides Employed in Nursing Facilities in 2009. We compared the
rate and types of convictions for nurse aides with substantiated findings in this evaluation
with an estimate of the rate and types of convictions for nurse aides employed in nursing
facilities in 2009. For the latter, we used data received for the March 2011 OIG
evaluation entitled Nursing Facilities’ Employment of Individuals With Criminal
Convictions (OEI-07-09-00110). This allowed us to determine whether statistically
significant differences existed at the 95-percent confidence level between the two groups
of nurse aides with criminal convictions: (1) nurse aides who had received substantiated
findings of abuse, neglect, and/or misappropriation in 2010, and (2) nurse aides who were
actively employed in nursing facilities as of June 1, 2009. Because nursing facilities are
prohibited from employing nurse aides with substantiated findings, we assumed that the
nurse aides who were actively employed as of June 1, 2009, did not have substantiated
findings. Although the periods of review are different (calendar year 2010 for this
evaluation versus the single day of June 1, 2009, for the earlier evaluation), we are
unaware of any nursing facility-related changes that would invalidate the comparison of
these groups of nurse aides with criminal convictions.

Limitations
State nurse aide registries do not identify nurse aides’ dates of employment; nurse aides’
dates of registration are not necessarily the same as the dates they began employment.
Therefore, we are unable to determine whether employers could have been aware of
nurse aides’ criminal conviction(s) prior to their employment. 24 We examined the timing
of convictions in relation to nurse aides’ dates of registration.

FBI-maintained criminal history records do not contain the necessary information, such
as whether the victim of a crime was a long-term-care facility resident, to determine
whether a conviction disqualifies an individual from long-term-care facility employment
under Federal regulation. Therefore, we limited our use of the FBI data to determining
whether nurse aides with substantiated findings had criminal convictions, but not for
determining whether these individuals were employed in violation of Federal regulation.

At this time, we do not know how many and which States will participate in the
background check program. Therefore, we provide information in this memorandum
report on all States. In the final evaluation report, we will report results specific to the
States that participated in the background check program.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.



24
  We acknowledge that the data obtained for this memorandum report and the March 2011 OIG evaluation
(Nursing Facilities’ Employment of Individuals With Criminal Convictions, OEI-07-09-00110) are related
solely to nursing facilities, whereas the background check program includes nursing facilities as well as
other types of long-term-care providers (e.g., home health agencies, hospices).


Criminal Convictions for Nurse Aides With Substantiated Findings (OEI-07-10-00422)
Page 8 – Marilyn Tavenner


RESULTS

Nineteen Percent of Nurse Aides With Substantiated Findings Had at Least One
Conviction Prior to Their Substantiated Findings
Our analysis of FBI-maintained criminal history records revealed that 19 percent
(300 of 1,611) of nurse aides who received substantiated findings of abuse, neglect, or
misappropriation in 2010 had at least one conviction prior to their substantiated findings.
This result suggests that the maximum possible reduction in substantiated findings of
abuse, neglect, and misappropriation of resident property at the completion of the
background check program would be 19 percent in comparison to 2010 baseline data.
However, we acknowledge that the reduction will be less than 19 percent because not all
nurse aides with criminal convictions are prohibited from employment and not all States
plan to participate in the background check program.

Overall, the 300 nurse aides with criminal convictions before their substantiated findings
had a total of 622 convictions. The number of convictions per nurse aide ranged from
1 to 14, averaging 2.1 convictions per nurse aide.

Timing of Convictions. Of the 300 nurse aides with at least one conviction prior to the
dates of their substantiated findings, 170 nurse aides had at least one conviction prior to
their date of registration as a nurse aide. 25 The remaining 130 nurse aides who received
substantiated findings of abuse, neglect, or misappropriation in 2010 each had at least one
conviction after the date of their registration as a nurse aide, but before a substantiated
finding.

The 300 nurse aides who each had at least one criminal conviction prior to the dates of
their substantiated findings include 43 nurse aides who each had both at least one
conviction before the date of their substantiated findings and at least one conviction
afterward. 26 For example, one nurse aide had an embezzlement conviction in
January 1997 and a shoplifting conviction in July 1998. After receiving a substantiated
finding of misappropriation on February 25, 2010, this individual had three convictions in
October 2010 for crimes against property: two convictions of identity theft and a
conviction for fraudulent conversion of leased goods. Table 2 shows the percentage of
nurse aides with convictions prior to their substantiated findings by the amount of time
elapsed between the most recent conviction and the date of the substantiated finding.




25
   The 170 nurse aides include 54 nurse aides who each had both at least one conviction before the date of
registration as a nurse aide and at least one conviction afterward.
26
   Forty-one nurse aides had convictions only after the date of their substantiated findings.


Criminal Convictions for Nurse Aides With Substantiated Findings (OEI-07-10-00422)
Page 9 – Marilyn Tavenner

Table 2: Percentages of Nurse Aides With Convictions Prior
to Substantiated Findings by Elapsed Time Between
Most Recent Conviction and Date of Substantiated Finding
                                     Percentage of Nurse
 Elapsed Time Before              Aides With Convictions
 Substantiated Finding Date        Prior to Substantiated
                                         Findings (n=300)
 Less than 1 year                                                               28.0%
 1 year to less than 5 years                                                    30.7%
 5 years to less than 10 years                                                  15.7%
 10 years to less than 15 years                                                 11.0%
 15 years to less than 20 years                                                  7.0%
 20 years to less than 30 years                                                  5.0%
 30 years or more                                                                2.7%
   Total*                                                                      100.0%
 Source: OIG analysis of FBI criminal history records and data on nurse aides with
 substantiated findings, 2012.

 *Percentages do not sum to 100 percent due to rounding.


Types of Convictions. Among the 300 nurse aides who each had a conviction prior to a
substantiated finding, the most common conviction (53 percent) was for crimes against
property (e.g., burglary, shoplifting, and writing bad checks). Table 3 shows the six
categories of crime and the corresponding percentages of convictions for nurse aides with
substantiated findings.

Table 3: Percentages of Convictions Received by Nurse
Aides With Substantiated Findings by Category of Crime
                                Percentage of Convictions
 Category of Crime
                                                  (n=622)
 Crimes against property                                                         52.9%
 Crimes against persons                                                          14.3%
 Other                                                                            9.3%
 DUI                                                                              9.3%
 Drug-related crimes                                                              7.2%
 Driving-related crimes other than DUI                                            6.9%
  Total*                                                                        100.0%
 Source: OIG analysis of FBI criminal history records and data on nurse aides with
 substantiated findings, 2012.

 *Percentages do not sum to 100 percent due to rounding.


In our analysis of FBI-maintained criminal history records, we identified five nurse aides
with substantiated findings in 2010 who were registered sex offenders. Three nurse aides
had sex offender registration dates prior to the dates of their substantiated findings, and
two were registered as sex offenders subsequent to the dates of their substantiated
findings.

Among Nurse Aides With Convictions, Nurse Aides With Findings of Abuse or
Neglect Were More Likely to Have Convictions of Crimes Against Persons; Nurse
Aides With Findings of Misappropriation Were More Likely to Have Convictions of
Crimes Against Property
We examined relationships between the type of substantiated finding(s) (i.e., abuse,
neglect, and/or misappropriation) and the type of conviction (e.g., crimes against
persons). Nurse aides with substantiated findings of either abuse or neglect were
3.2 times more likely to have convictions of crime against persons than nurse aides with


Criminal Convictions for Nurse Aides With Substantiated Findings (OEI-07-10-00422)
Page 10 – Marilyn Tavenner


substantiated findings of misappropriation. 27 Conversely, nurse aides with substantiated
findings of misappropriation were 1.6 times more likely to have convictions of crime
against property than nurse aides with substantiated findings of abuse or neglect. 28

Nurse Aides With Substantiated Findings Had a Higher Rate of Criminal
Convictions Than Nurse Aides Employed in Nursing Facilities Overall
When we consider convictions occurring either before or after substantiated finding
dates, 21 percent (341 of 1,611) of nurse aides with substantiated findings had criminal
convictions. According to data for the 2011 OIG evaluation entitled Nursing Facilities’
Employment of Individuals With Criminal Convictions, 29 6 percent of nurse aides
employed in nursing facilities overall had criminal convictions. 30 Both groups of nurse
aides averaged approximately two convictions per nurse aide.

Types of Convictions. We compared the percentages of each group of nurse aides with
each conviction type. The percentages of nurse aides with convictions of crimes against
persons and property were higher among the nurse aides with substantiated findings in
2010 when compared with nurse aides employed in nursing facilities overall. 31 Table 4
shows the percentages of nurse aides with these two conviction types.
Table 4: Percentages of Nurse Aides With Convictions
By Category of Conviction
                               Convictions of    Convictions of
                               Crimes Against    Crimes Against
                               Persons           Property
 Nurse aides with substantiated
                                                                  23.5%                         63.6%
 findings in 2010
 Nurse aides employed in nursing
                                                                  12.9%                         47.4%
 facilities in 2009
 Source: OIG analysis of FBI criminal history records and nurse aides with 2010 substantiated
 findings data and 2009 nursing facility employee data, 2012.


CONCLUSION

The results presented in this memorandum report provide baseline information on the
extent to which nurse aides had substantiated findings (1,611) and the extent to which
nurse aides with substantiated findings of abuse, neglect, and/or misappropriation had
previous criminal convictions (19 percent) and the nature of those convictions. The

27
   Fifty-one nurse aides with substantiated findings of either abuse or neglect had convictions for crimes
against persons; 16 nurse aides with substantiated findings of misappropriation had convictions for crimes
against persons.
28
   Ninety-seven nurse aides with substantiated findings of misappropriation had convictions for crimes
against property; 59 nurse aides with substantiated findings of either abuse or neglect had convictions for
crimes against property.
29
   OEI-07-09-00110, March 2011.
30
   Appendix A presents the point estimates and confidence intervals for all population estimates.
31
   Differences are statistically significant at the 95-percent confidence level. We found no statistically
significant difference in the percentages of nurse aides with convictions of drug crimes and driving-related
crimes other than DUI. There were statistically significant differences in the percentages of nurse aides
with convictions of DUI and other crimes; however, for these two categories of crimes, the percentage of
nurse aides employed in nursing facilities in 2009 was higher than the percentage of nurse aides with
substantiated findings in 2010.


Criminal Convictions for Nurse Aides With Substantiated Findings (OEI-07-10-00422)
Page 11 – Marilyn Tavenner


percentage of nurse aides with criminal convictions and substantiated findings is higher
than the percentage of nurse aides with criminal convictions employed in nursing
facilities; however, it is important to note that approximately 80 percent of nurse aides
with substantiated findings had no criminal convictions in FBI-maintained criminal
history records. To determine trends, we will repeat this analysis for nurse aides with
substantiated findings as the background check program progresses. We will present the
results in the mandated report entitled Nationwide Program for National and State
Background Checks for Long-Term-Care Employees (OEI-07-10-00420).

CMS may wish to provide the information in this memorandum report to States that
participate in the background check program as well as to the Long-Term-Care Criminal
Convictions Workgroup. This report is being issued directly in final form because it
contains no recommendations. If you have comments or questions about this report,
please provide them within 60 days. Please refer to report number OEI-07-10-00422 in
all correspondence.




Criminal Convictions for Nurse Aides With Substantiated Findings (OEI-07-10-00422)
 Page 12 – Marilyn Tavenner


 APPENDIX A

 Table A-1: Point Estimates and Confidence Intervals for Data Used in March 2011 Report
 (Nursing Facilities’ Employment of Individuals With Criminal Convictions,
 OEI-07-09-00110)
                                                                              Sample                Point                     95-Percent
 Estimate
                                                                                Size             Estimate             Confidence Interval
 Percentage of nurse aides employed in nursing facilities in
                                                                                  12,239                6.4%                             5.1–8.0%
 2009 with convictions

 Average number of convictions among nurse aides
                                                                                  12,239                   2.0                               1.8–2.2
 employed in nursing facilities in 2009

 Percentage of nurse aides employed in nursing facilities in
                                                                                  12,239               12.9%                            9.9–16.6%
 2009 with convictions of crimes against persons

 Percentage of nurse aides employed in nursing facilities in
                                                                                  12,239               47.4%                          41.2–53.3%
 2009 with convictions of crimes against property

Source: Office of Inspector General analysis of Federal Bureau of Investigation criminal history records and 2009 data on nursing facility
employees, 2012.




 Criminal Convictions for Nurse Aides With Substantiated Findings (OEI-07-10-00422)
